Department of Homeland Security
   Ofﬁce of Inspector General


            The DHS Privacy Office Implementation 

              of the Freedom of Information Act





OIG-11-67                                         March 2011
March 30, 2011
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 


     The Privacy Office FOIA Staff Work Well With DHS Components............................4 

     Recommendations........................................................................................................11 


     The Chief FOIA Officer Should Make Regular Use of the 

     Statutory Authority to Advise the Secretary on Program Needs .................................11 

     Recommendation .........................................................................................................23 


     Additional Guidance Is Needed on How DHS 

     Will Make Discretionary Releases Under FOIA .........................................................23 

     Recommendation .........................................................................................................29 


     Recommendations Under the (k)(3) Authority Are 

     Necessary To Improve DHS FOIA Staffing................................................................29 

     Recommendation .........................................................................................................30 


Management Comments and OIG Analysis ......................................................................30 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................35 

     Appendix B:           Management Comments to the Draft Report .......................................36 

     Appendix C:           FOIA Statutory Exemptions and Exclusions .......................................43 

     Appendix D:           2009 Executive Branch Guidance........................................................44 

     Appendix E:           Major Contributors to this Report........................................................49 

     Appendix F:           Report Distribution ..............................................................................50 


Abbreviations
           AP                 Associated Press        

           DHS                Department of Homeland Security 

           DOJ                Department of Justice 

           FOIA               Freedom of Information Act

           FY                 fiscal year       

           OGIS               Office of Government Information Services 

           OIG                Office of Inspector General 

           USCIS              United States Citizenship and Immigration Services 

OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
                   This report assesses Department of Homeland Security Privacy
                   Office implementation of the Freedom of Information Act, a statute
                   designed to grant access to federal records. The Privacy Office
                   advises department components on policies related to the act,
                   although most components process requests independently.

                   We reviewed how the Privacy Office facilitates compliance with
                   two 2009 executive branch memorandums. In January 2009, the
                   President directed agencies to have a “presumption of openness”
                   on Freedom of Information Act releases. The Attorney General
                   supplemented this vision with March 2009 guidance. We
                   interviewed managers in 11 components, analyzed data, and
                   studied policy. Specifically, we sought to determine the
                   effectiveness of the Privacy Office’s work with other components
                   to implement the law.

                   We determined that the Privacy Office has made important
                   progress in ensuring openness. Components appreciate the
                   collaboration and responsiveness of the Freedom of Information
                   Act staff in the Privacy Office. These efforts help the department
                   implement a complicated statute.

                   We also determined that the Office of the Secretary has had
                   unprecedented involvement in the Freedom of Information Act
                   process beginning in 2009. For several hundred requests deemed
                   significant, components were required to provide for headquarters
                   review all the material they intended to release. The department’s
                   review process created inefficiencies that hampered full
                   implementation of the Freedom of Information Act. We evaluated
                   a Freedom of Information Act release about the review process,
                   and identified some redactions we believe may have been
                   inappropriate. We are making six recommendations to expand the
                   progress that the Privacy Office has made. Three of these
                   recommendations focus on how the Chief Freedom of Information
                   Act Officer can provide more recommendations to the Secretary on
                   ways to improve the department’s Freedom of Information Act
                   program.




          The DHS Privacy Office Implementation of the Freedom of Information Act 


                                          Page 1

Background
                         Department of Homeland Security (DHS) records are subject to
                         release under the Freedom of Information Act (FOIA).1 Enacted in
                         1966 and amended several times, FOIA mandates that certain
                         executive branch information be accessible to the public. The right
                         to receive records subject to disclosure is enforceable through the
                         judicial process.

                         The Supreme Court has written that FOIA is a “structural necessity
                         in a real democracy,” because the law facilitates the citizenry’s
                         ability to learn about government activities.2 Various departments’
                         FOIA disclosures have exposed a range of improprieties and waste,
                         including health care fraud, misuse of grant funds, and illegitimate
                         law enforcement practices.3

                         FOIA creates a presumption of disclosure. Material must be
                         disclosed unless it comes within one of nine exemptions or three
                         exclusions, summarized in Appendix C, to address instances when
                         the government’s need to protect information may outweigh the
                         public’s right to know. Nonetheless, the law does not require use
                         of exemptions in all applicable situations. In 1965, a Senate
                         committee declared that successful FOIA implementation relies on
                         “a workable formula which encompasses, balances, and protects all
                         interests, yet places emphasis on the fullest responsible
                         disclosure.”4 As the Supreme Court has noted, FOIA exemptions
                         “were only meant to permit the agency to withhold certain
                         information, and were not meant to mandate nondisclosure.”5

                         In general, the statute requires agencies to process a FOIA request
                         within 20 business days.6 Agencies can contact requesters to
                         clarify what is being requested, or to note that the scope of the
                         request is so large as to require additional processing time. When
                         the agency denies the request in full or in part, it must explain why,
                         and inform the requester of the right to appeal.

                         On January 21, 2009, President Obama issued a memorandum on
                         FOIA implementation that emphasized historical principles of

1
  5 U.S.C. § 552(a). 

2
  Nat’l Archives and Records Admin. v. Favish, 541 U.S. 157, 171 (2004). 

3
  The Right to Know: Your Guide to Using and Defending Freedom of Information Law in the United

States at 94-99 (Santa Barbara, CA: Praeger Press, 2009).

4
   S. Rep. No. 89-813 at 3 (1965). 

5
  Chrysler Corp. v. Brown, 441 U.S. 281, 294 (1979). 

6
  5 U.S.C. § 552(a)(6). 



                The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                Page 2

                          information disclosure. Agencies were directed to make all FOIA
                          decisions under a “presumption in favor of disclosure.” When in
                          doubt, the President wrote, “openness prevails.”

                          On March 19, 2009, the Attorney General, who provides FOIA
                          policy guidance to federal entities, directed that agencies should
                          not withhold records simply because an exemption may apply.
                          When records cannot be fully disclosed, agencies must consider
                          whether partial disclosure is possible. He added that “unnecessary
                          bureaucratic hurdles” should not exist in a FOIA program. The
                          Attorney General also directed that agencies should expand use of
                          the Internet to post some information before FOIA requests are
                          submitted. Such proactive disclosure requirements were originally
                          added to FOIA in the Electronic Freedom of Information Act
                          Amendments of 1996.7

                          This report refers to the memorandums of the President and
                          Attorney General as the 2009 executive branch guidance. These
                          memorandums, attached in Appendix D, reiterated the long-
                          standing FOIA principle that information should not be withheld to
                          protect public officials from embarrassment, to avoid disclosure of
                          errors, or “because of speculative or abstract fears.”

                          Most of the department’s components process requests for their
                          own records under the guidance of a FOIA officer, while DHS
                          Privacy Office staff processes requests for the Privacy Office and
                          eight headquarters offices.8 From the Privacy Office, the Chief
                          FOIA Officer, who is also the department’s Chief Privacy Officer,
                          supports component efforts, shares information, and monitors the
                          DHS FOIA program. However, the Privacy Office does not
                          control FOIA processing in other DHS components, and agency
                          FOIA officers are not supervised by the Chief FOIA Officer.

                          To process requests, FOIA officers work with program experts to
                          determine whether responsive information exists, then consider the
                          possible exemptions or exclusions that would allow the agency to
                          withhold all or part of the information. Experts at the components
                          have the best knowledge about what information is responsive and
                          whether disclosure of certain information could have an
                          operational impact. The Privacy Office offers advice to
                          components on FOIA law and policy, but a component can process

7
 P.L. 104-231.
8
 Office of the Secretary, Citizenship and Immigration Services Ombudsman, Office of Counternarcotics
Enforcement, Domestic Nuclear Detection Office, Office of the Executive Secretariat, Office of Health
Affairs, Office of Legislative Affairs, and Office of Public Affairs.


                The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                Page 3

                         many requests without the intervention of other parts of DHS.
                         Cases also arise that require the input of multiple DHS
                         components, or other federal entities, such as the Department of
                         State or the Federal Bureau of Investigation.

                         DHS has a substantial FOIA caseload. In fiscal year (FY) 2009, it
                         received 103,093 FOIA requests, or 18% of the federal
                         government’s 557,825 total requests. The number of requests rose
                         to 130,098 in FY 2010. United States Citizenship and Immigration
                         Services (USCIS) accounted for 70% of the DHS FY 2010 total.
                         This is because USCIS maintains Alien Files, which are frequently
                         requested records relating to an individual’s immigration status.

                         In addition to the volume of requests, DHS faces a challenge
                         because FOIA requests can be complex. The size of requested
                         documents and the need to consult with other agencies means that
                         some FOIA requests cannot be processed in a timely manner. This
                         is not necessarily indicative of inefficient disclosure procedures.
                         Even though DHS staff may work with requesters to limit the
                         scope of some requests to decrease response time, delays beyond
                         the statutory deadline will occur. For FY 2010, even releases
                         defined as “simple” took an average of 62 days to process.

                         In March 2009, the U.S. Government Accountability Office
                         reported on the department’s overall FOIA program.9 The review
                         focused on DHS components that had the most pending requests.
                         The report noted that the department has taken important steps to
                         reduce request backlogs, which are FOIA disclosures that have not
                         been released in the allotted timeframe. The report made five
                         recommendations, including improvements in the use of redaction
                         software, expanded training, and backlog monitoring.

Results of Review
        The Privacy Office FOIA Staff Work Well With DHS 

        Components
 
                         The Privacy Office Helps DHS Implement FOIA

                         DHS components have a strong working relationship with the
                         Privacy Office. Component FOIA officials we interviewed praised
                         the Privacy Office’s FOIA staff for their approachability and
                         responsiveness to requests for assistance. The Privacy Office
9
  U.S. Government Accountability Office, Freedom of Information Act: DHS Has Taken Steps to Enhance
Its Program, but Opportunities Exist to Improve Efficiency and Cost-Effectiveness, GAO-09-260.


                The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                Page 4

         administers biweekly DHS FOIA teleconferences, an initiative
         established in March 2009. These calls help with the sharing of
         ideas, high-profile requests, litigation, and hot topics.

         Components report FOIA request processing statistics to the
         Privacy Office monthly, and the Privacy Office compiles data from
         the reports for the department’s internal monthly report. The
         monthly component reports include the number of requests
         received and processed, the age of requests, and the number of
         times a component made a discretionary release and proactive
         disclosure. DHS set a department-wide 15% backlog reduction
         goal for FY 2010, which is above the 10% reduction goal that the
         Office of Management and Budget established in December 2009.
         Each month the Privacy Office calculates components’ backlog
         reduction goal, establishing the number of processed requests that
         are needed to reduce any existing backlog.

         The Privacy Office conducts FOIA training for components.
         Training can cover FOIA in general or be tailored to specific
         situations, such as the use of particular exemptions. This training
         is based on a component’s request, rather than a set schedule.
         When the President and Attorney General issued FOIA
         memorandums in 2009, the Privacy Office forwarded copies to
         DHS FOIA officials. Training slides and guidance that the
         Department of Justice (DOJ) prepared were also sent, as well as
         additional Privacy Office guidance on implementation of both
         memoranda.

         The Privacy Office has advocated for components that seek
         managerial support to hire more FOIA staff or to change FOIA
         operations. Interviewees stated that the Privacy Office
         successfully advocated for additional FOIA staff in two
         components and consolidation of one component’s multiple FOIA
         offices. A Privacy Office manager also participated in component
         FOIA officer hiring panels. The Privacy Office will lend its own
         staff to components that need processing assistance. One
         component’s FOIA Officer is actually a Privacy Office employee.

         Progress Has Been Made on Proactive Disclosure

         In March 2009, the Chief FOIA Officer issued guidance to
         components on the new standard under FOIA. In addition to
         attaching a copy of the Attorney General’s memorandum, the
         Chief FOIA Officer noted that all DHS employees share the
         responsibility to ensure transparency and administer FOIA


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 5

                             effectively, including an expansion of proactive disclosure through
                             the use of electronic reading rooms available on components’
                             public websites. The following categories of records are subject to
                             proactive disclosure:

                                 1.	 Final opinions and orders made in the adjudication of
                                     cases;
                                 2.	 Policy statements adopted by the agency;
                                 3.	 Administrative staff manuals and instructions to staff that
                                     affect a member of the public; and
                                 4.	 Records released in response to a FOIA request that “are
                                     likely to become the subject of subsequent requests for
                                     substantially the same records.”10

                             In May 2009, the Chief FOIA Officer took steps to expand
                             proactive disclosure under FOIA by issuing another memorandum
                             to senior DHS officials. That memorandum emphasized the
                             presumption of disclosure and the need for discretionary release of
                             information. The memorandum emphasized the historical view
                             that exemptions do not apply merely because full or partial
                             disclosure may cause embarrassment or demonstrate an error or
                             failure. Distributing this information demonstrated a respect for
                             the 2009 executive branch guidance and a desire to assist DHS
                             components.

                             FOIA managers informed us that DHS was the first department to
                             issue its own proactive disclosure memorandum. This August
                             2009 guidance from the Privacy Office directed components to
                             disclose six categories of records, which expanded on the four
                             types of information listed in FOIA section (a)(2). The following
                             DHS records are subject to this disclosure:

                                 1.	 Historical daily schedules of the most senior agency
                                     officials;
                                 2.	 Executed contracts and grants;
                                 3.	 Management directives and instructions;
                                 4.	 Congressional correspondence;
                                 5.	 FOIA logs (summaries of cases so the public may
                                     understand what is being requested under FOIA); and
                                 6.	 Records released pursuant to a FOIA request that have
                                     been, or are likely to become, the subject of three or more
                                     requests.



10
     5 U.S.C. § 552(a)(2).


                    The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                    Page 6

                            The Chief FOIA Officer provided additional assistance in October
                            2009, by issuing guidance on formatting the senior officials’
                            historical schedules prior to disclosure. Although the Privacy
                            Office recommended that the department post calendars of officials
                            at the Assistant Secretary (or equivalent) level or higher,
                            components retained the ability to choose which officials’
                            calendars they would disclose. The memorandum recommended
                            that components use a public version of the calendar with the
                            removal of information exempt from FOIA, such as personal
                            appointments. The memorandum also included suggestions for
                            describing events uniformly, such as when officials were on leave.

                            In March 2010, the Chief FOIA Officer issued a memorandum to
                            component heads reiterating the presumption of disclosure and the
                            proactive disclosure categories. The memorandum included
                            statistics showing that the department had increased the number of
                            records released in full by 46% and the number released in part by
                            73%.

                            The DHS website provides a direct link to each major component’s
                            electronic reading room. Component FOIA officers appreciated
                            the Privacy Office’s efforts to expand the use of electronic reading
                            rooms, but noted that challenges can inhibit this work. These
                            challenges include an unexpected influx of FOIA requests, staffing
                            limitations, and the time required to review documents. It can be
                            time-consuming for busy component FOIA offices to redact
                            calendars, contracts, and other documents subject to the DHS
                            proactive disclosure policy.

                            The DHS electronic reading room provides a list of frequently
                            requested information, then directs users to which component or
                            directorate will handle requests to locate records. We reviewed
                            component websites to discover the extent to which records are
                            disclosed proactively. FOIA logs, for example, are easily
                            accessible, although the time periods covered vary. The Privacy
                            Office has FOIA logs posted from 2004 to 2010. With few
                            exceptions, component FOIA logs are posted for FY 2009 and
                            2010.11

                            The DHS electronic reading room posts schedules for Secretary
                            Napolitano. As of March 2011, Secretary Napolitano’s calendars
                            for January 2009 through July 2010 are posted. There is
                            inconsistency across components regarding the proactive

11
     http://www.dhs.gov/xfoia/editorial_0424.shtm#6.


                   The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                   Page 7

                            disclosure of senior officials’ schedules, with limited posting in
                            some components, or even no posting in certain cases. We
                            observed that some of the delay is due to the extensive redaction
                            process necessary to clear privacy-related information, in addition
                            to pending clearance by officials.

                            The DHS website posts the top five categories of requests that the
                            department receives, along with information on the components to
                            which an individual can send a request. The top five requests of
                            the department are for Alien Files, contracts, disaster relief
                            information, grants, and information on No Fly lists and the
                            Traveler Redress Inquiry Program.12

                            Proactive disclosure of contracts creates challenges for
                            components and the Privacy Office, mainly because of concerns
                            about proprietary information. To speed the proactive disclosure
                            of contracts, the Privacy Office suggests that components begin to
                            identify proprietary information when the contract is signed.
                            However, our interviews with FOIA officers and our observations
                            validate that inconsistencies in proactive disclosure of contracts
                            exist across the department. Several components noted that the
                            length of some contracts makes this process even more difficult.
                            This has diminished the department’s ability to achieve the goals
                            of proactive disclosure. DHS receives a substantial number of
                            FOIA requests for contracts, so additional proactive disclosure
                            could serve the public and reduce the number of FOIA requests
                            overall. The Privacy Office has been engaged on this matter, but
                            additional attention is desirable.

                            Clarification of the Public Liaison’s Role Would Be Beneficial

                            In 2005, Executive Order 13392 established the position of FOIA
                            Public Liaison in federal agencies. The Openness Promotes
                            Effectiveness in our National (OPEN) Government Act of 2007
                            formally codified this position as a way to assist requesters in
                            FOIA disputes with agencies. The Public Liaison, who reports to
                            the DHS Deputy Chief FOIA Officer, serves as a mediator
                            between components and FOIA requesters, but the position does
                            not have control over agency FOIA operations. While DHS has
                            only one Public Liaison, some departments, such as the
                            departments of Defense, Energy, and Interior, have multiple Public
                            Liaisons.



12
     http://www.dhs.gov/xfoia/editorial_0579.shtm.


                   The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                     Page 8

                          FOIA officers and external agencies we interviewed said the DHS
                          Public Liaison has improved the department’s disclosure process.
                          Managers at the Office of Government Information Services
                          (OGIS), a FOIA mediation office that is part of the National
                          Archives and Records Administration, said that the DHS Public
                          Liaison is one of the best in the government.13 The Public
                          Liaison’s responsibilities include interaction with outside entities
                          to facilitate FOIA disclosures. OGIS has sought the Public
                          Liaison’s assistance in facilitating the resolution of various DHS
                          FOIA cases. Examples of OGIS work with the Public Liaison
                          included two USCIS FOIA requests that were initially delayed or
                          denied. OGIS officials and DHS FOIA Officers said that the
                          Public Liaison is effectively handling the statutory mediation role.

                          Even with the positive view of the Public Liaison, some
                          departmental confusion exists. Because the statute does not
                          provide extensive guidance, the Public Liaison suggested further
                          development of policy on the mediation process and interaction
                          with components. Confusion in parts of DHS led to the creation of
                          public liaison positions in some components, although the Privacy
                          Office recognizes only one Public Liaison across all of DHS.
                          Additionally, the Public Liaison’s ability to make changes to the
                          FOIA requester service centers in components is part of the
                          original role for the position, but the Public Liaison has limited
                          ability to fulfill that function. Although the Privacy Office has
                          helped components on customer service issues, greater clarity
                          concerning the Public Liaison’s work would be beneficial,
                          especially regarding how the position can be used to foster any
                          needed change in components’ practices.


                          The Privacy Office Can Build on Existing Reviews of
                          Component FOIA Operations

                          The Privacy Office should institute an ongoing review process to
                          ensure continuing improvement in component FOIA operations.
                          These regular reviews would allow the Privacy Office to discover
                          problems and ensure ongoing compliance with FOIA and DHS
                          policies. A FOIA manager provided us with a component’s release
                          in which redactions, which were made with a magic marker, did
                          not protect the information from disclosure. The component’s
                          FOIA Office did not have an opportunity to correct this error
                          before disclosure of the information. A Privacy Office process of
13
  OGIS was created to review federal agencies’ FOIA policies and procedures, to mediate disputes, and to
generally act as a “bridge” between FOIA requesters and federal agencies. 5 U.S.C. § 552(h)(1).


                The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                 Page 9

         regular component reviews may identify such incorrect or
         inefficient practices.

         The Privacy Office has conducted some ad hoc component
         reviews, which resulted in greater efficiency across DHS. For
         example, in September 2008, the Privacy Office reviewed a
         component after receiving complaints from requesters.
         Components may also request assistance for a particular need, such
         as staffing problems.

         In January 2008, Privacy Office managers visited components to
         examine files and discuss processing challenges. At one
         component, incomplete files and inadequate office equipment
         hindered efficient operations. Privacy Office FOIA staff became
         involved in processing that component’s FOIA requests as a result
         of this component visit. In another case, the Privacy Office
         reviewed FOIA operations at the three components with the most
         backlogs. Work with component staff helped identify and
         eliminate problems with backlog reduction. These reviews
         resulted in action to improve operations, such as hiring contractors,
         centralizing FOIA operations, and hiring a new FOIA officer.

         The Chief FOIA Officer suggested that any review process must be
         collaborative, because component FOIA officers would likely
         reject a mini-audit as too burdensome—a reasonable concern. We
         suggest that components have a role in how the review process
         would operate to ensure that unique statutory issues, such as Office
         of Inspector General (OIG) independence or other component-
         specific needs, are fully recognized. Instituting a regular review
         process should not damage the positive relationship between the
         Privacy Office and components.

         One interviewee suggested that the Privacy Office could institute
         regular reviews of component FOIA operations via a memorandum
         from the Chief FOIA Officer. This would be consistent with the
         Chief FOIA Officer’s statutory authority under FOIA subsections
         (k)(1) and (k)(2) to have agency-wide responsibility for efficient
         and appropriate program compliance and to monitor
         implementation of FOIA across the department. Additionally, the
         newly created Deputy Chief FOIA Officer’s position description
         includes a requirement to develop component reviews and
         inspections to ensure uniformity and maximum compliance with
         FOIA. The Privacy Office could further leverage its good working
         relationship with components through collaborative development
         of a protocol to review component FOIA operations.


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 10

                      Recommendations
                               We recommend that the Chief FOIA Officer:

                               Recommendation #1: Develop additional internal policies
                               regarding proactive disclosure to ensure consistency across
                               components and quicker posting of information.

                               Recommendation #2: Formalize the roles and responsibilities of
                               the Public Liaison.

                               Recommendation #3: Implement an internal review function to
                               assess department-wide FOIA operations on a regular basis to
                               maximize efficiencies and improve the administration of the
                               department’s FOIA operations.


           The Chief FOIA Officer Should Make Regular Use of the
           Statutory Authority to Advise the Secretary on Program Needs
                               During our review, we learned that the Office of the Secretary was
                               involved in examining certain FOIA releases prior to disclosure.
                               This process was created so the department would be aware of
                               certain FOIA requests deemed significant. After reviewing
                               information and interviewing DHS FOIA experts, we determined
                               that the significant request review process (hereafter, the review
                               process) did not prohibit the eventual release of information.
                               However, the intervention of the Office of the Secretary created
                               inefficiencies. Although the review process delayed some releases,
                               the Office of the Secretary is responsible to oversee DHS
                               operations. The statute establishes that the Secretary “is the head
                               of the Department and shall have direction, authority, and control
                               over it.”14 Our concern pertains to the scope of and inefficiency
                               caused by the review process, not to the Secretary’s role, as head
                               of DHS, in overseeing the FOIA performance of her subordinates.
                               Although the department redesigned the review process in July
                               2010, further enhancements can be made to improve FOIA
                               implementation. To that end, the Chief FOIA Officer should use
                               the authority at 5 U.S.C. § 552(k)(3) to make recommendations to
                               the Secretary regarding ways to improve the DHS FOIA enterprise.



14
     6 U.S.C. §102.


                      The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                      Page 11

                              The OPEN Government Act Established That Chief FOIA
                              Officers Should Make Recommendations to the Secretary

                              Congress made various changes to FOIA in the OPEN
                              Government Act of 2007. For example, agencies must create
                              individual tracking numbers for requests as a way to improve
                              service provided to FOIA requesters. In addition, public disclosure
                              of various data, such as processing times and use of exemptions, is
                              required.

                              The OPEN Government Act also created the position of Chief
                              FOIA Officer in federal agencies. The Secretary appoints this
                              individual, who serves at the Assistant Secretary level. The Chief
                              FOIA Officer has agency-wide responsibility for efficient and
                              appropriate compliance with FOIA. To coincide with this
                              responsibility, 5 U.S.C. § 552(k)(3) establishes that the Chief
                              FOIA Officer shall make recommendations to the Secretary for
                              such adjustments to agency practices, policies, personnel, and
                              funding as may be necessary to improve implementation of FOIA.
                              The Attorney General reiterated this requirement in his March
                              2009 memo. The Attorney General noted that Chief FOIA
                              Officers must recommend such adjustments to agency practices,
                              personnel, and funding as may be necessary.

                              Components have noted several improvements across the DHS
                              FOIA program since the Chief FOIA Officer’s arrival in March
                              2009.

                              The Office of the Secretary’s Review of Significant Requests
                              Was a Missed Opportunity for the Chief FOIA Officer To Use
                              the (k)(3) Authority

                              The Office of the Secretary’s review of certain significant FOIA
                              requests was the subject of a July 2010 Associated Press (AP)
                              story, which led to concerns that the department was creating a
                              “political filter” to slow the disclosure of DHS records under
                              FOIA. 15 We were not able to substantiate the most serious
                              allegations made in the AP story or subsequent public comments.
                              However, we determined that the review process led to
                              inefficiencies and slower processing of certain FOIA requests.

                              We could not determine the exact number of FOIA requests that
                              were subject to the review process because the cases were not

15
     “A Political Filter for Info Requests,” Associated Press, July 21, 2010.


                    The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                      Page 12

         tracked consistently. We asked the Chief FOIA Officer for data on
         the time required to review significant cases. The information had
         to be collected manually, which took a considerable amount of
         time. The Chief FOIA Officer suggested that the data were not
         fully reliable. Even with these limitations, the data and DHS FOIA
         experts suggested that as many as 610 FOIA releases were
         identified as being significant, and thus subject to the review
         process, between late September 2009 and early July 2010. The
         data and DHS FOIA experts indicate that 150 to 250 FOIA
         responses were processed and thus part of the review process
         during this period. We were unable to resolve this discrepancy
         based on the incomplete data, and we do not estimate the exact
         number of requests involved. DHS received about 8,500 requests a
         month during the time the review process was formulated.

         The review process was initiated formally in September 2009, even
         though the Office of the Secretary pursued details about certain
         requests earlier. The review process was automated in July 2010.
         Components now place significant releases in SharePoint, a
         software platform that allows individuals to review and collaborate
         on documents. This enables interested personnel to review the
         content of releases to prepare for possible media coverage. After
         the information has been on SharePoint for 3 days, components
         may release it to the requester without a formal review process.
         We were informed in March 2011 that the SharePoint process will
         be reduced to a 1-day hold. This change will further improve the
         DHS FOIA program.

         Advising the Office of the Secretary of Certain FOIA Requests
         Has Occurred in DHS for Several Years

         We received information from the Office of the Secretary and the
         Chief FOIA Officer about the origin of the review process.
         Components have been required to notify the Office of the
         Secretary of certain FOIA cases since 2005. This policy was
         designed to provide data on FOIA requests in general, including
         the identity of some requesters. Information gained is included in
         the department’s weekly report to the White House.

         In 2006, the policy was revised to provide more guidance to DHS
         components on which types of FOIA requests were of interest for
         weekly reporting purposes. This policy did not require that the
         Office of the Secretary review the actual FOIA releases. Rather,
         the process provided information about what was being disclosed.



The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 13

         Among other areas, the Office of the Secretary asked for details on
         FOIA releases that—

             1.	 Related to a presidential or agency priority;
             2.	 Would likely garner media attention;
             3.	 Contained documents related to meetings with prominent
                 elected, business, or community leaders; or
             4.	 Were from the media, Congress, or special interest groups.

         This request policy remained in effect after the change of
         administrations. In 2009, the Office of the Secretary had a
         heightened interest in several specific FOIA requests. This
         prompted inquiries to components for more details about the scope
         of some requests and the individuals who had submitted them. A
         significant change occurred in September 2009, when components
         were prohibited from releasing responses to FOIA requests that
         met the criteria for inclusion in the weekly report until the Office
         of the Secretary reviewed the material. The inefficiencies we
         discovered began after the decision to review all significant
         requests prior to release.

         FOIA Disclosures Were Still Made Under the Significant
         Request Review Process

         We received information from FOIA experts at various DHS
         components and reviewed documents and communications related
         to the review process. None of this information demonstrated that
         the Office of the Secretary prohibited the eventual release of
         information under FOIA. Information we obtained from the FOIA
         staff and our review of documents corroborates this assessment.

         The Office of the Secretary Was Interested in Certain
         Requesters’ Backgrounds Before the Significant Request
         Review Process Began

         In May 2009, staff in the Office of the Secretary asked questions
         about FOIA releases related to the department’s work on right-
         wing extremist groups. A report on the subject was researched
         during the Bush administration, but not finalized and released until
         after President Obama’s election. DHS received several FOIA
         requests after initial media stories about DHS’ analysis of right-
         wing extremism. A staff person in the Office of the Secretary
         asked the Privacy Office why certain FOIA requesters received
         expedited processing, a process the FOIA statute provides for



The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 14

                           when a requester demonstrates a “compelling need.”16 The next
                           day, the Office of the Secretary asked, “Have we actually turned
                           over any documents at this point? If so, when and what, and if not,
                           when do we expect to?” One week later, the Office of the
                           Secretary asked for a list of all 33 organizations that requested the
                           right-wing extremism report. After the list was provided, a further
                           inquiry was made regarding how many of the organizations were
                           media outlets.

                           Although internal discussions regarding agency actions are
                           appropriate, in this context, these discussions created “unnecessary
                           bureaucratic hurdles” that delayed DHS components’ ability to
                           respond more timely to FOIA requests. For example, why a
                           specific document was requested is insignificant under FOIA,
                           since requesters do not need to justify their interest in desired
                           records. The Supreme Court has established that17:

                            “citizens should not be required to explain why they seek the
                            information. A person requesting the information needs no
                            preconceived idea of the uses the data might serve. The information
                            belongs to citizens to do with as they choose . . . the disclosure does
                            not depend on the identity of the requester. As a general rule, if the
                            information is subject to disclosure, it belongs to all.”

                           Department officials told us that that advance knowledge of
                           significant releases can improve the DHS response to the media
                           inquiries that often follow public release of information about DHS
                           activities. While the department has a legitimate obligation to
                           respond to media inquiries, we are not persuaded that delaying a
                           FOIA release so that officials can prepare for expected inquiries is
                           the best public policy. Again, the problem is that some of these
                           inquiries delayed the final issuance of some FOIA responses.

                           The department did not violate privacy laws or other rules when
                           the Office of the Secretary gained information about some
                           requesters. Indeed, agencies usually disclose the identities of
                           requesters to the public when posting FOIA logs.




16
   5 U.S.C. § 552(a)(6)(E). DHS regulations set forth standards for evaluating such requests. 6 C.F.R. 

§ 5.5(d).

17
   National Archives and Records Administration v. Favish, 541 U.S. 157, 172 (2004). 



                 The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                  Page 15

         Examples Exist of Statutory Noncompliance and Inefficiencies
         Caused When Some Significant Requests Were Reviewed

         Documents we received demonstrate several cases of releases
         being delayed because the Office of the Secretary asked basic
         questions about the FOIA process or for other minor reasons. In
         many cases, delays under the review process were short. Some
         releases needed only 1 to 4 days for completion of the review
         process. These relatively brief delays still caused the temporary
         withholding of certain documents that a component was prepared
         to release.

         Other releases were delayed longer. In one example, the Office of
         the Secretary received a component’s release on October 16, 2009.
         The review was delayed at least 10 calendar days because of
         higher-priority business in the reviewing office. We are not
         including quotations from this and several other e-mails related to
         the review process because the statements were redacted in
         information released to AP. We will discuss the redactions from
         the release to AP later in this report.

         A similar example occurred on November 9, 2009, when the
         Privacy Office forwarded a FOIA response to the reviewers in the
         Office of the Secretary. Three days later, a staff person replied, “I
         have a few questions about this one.” On November 17, the
         Privacy Office asked about the status of the request, since no
         authorization had been received to permit release of the
         information. Data we received from the Privacy Office included a
         range of examples of cases that were under review at the Office of
         the Secretary for several weeks.

         We cannot establish how often the review process caused the delay
         of FOIA releases to the point of statutory violation (i.e., delays that
         extended the response time beyond the 20-business-day statutory
         deadline). Office of the Secretary personnel said that significant
         releases were not simply stuck in the process waiting for a staff
         person to review the information. Some proposed releases may
         have been returned to the component with a question, or sent to the
         Office of the General Counsel for further legal review or to check
         the consistency of redactions. Regardless of how the release was
         handled while in the review process, data suggest, but we cannot
         confirm with exactness, that dozens of FOIA releases were delayed
         for weeks while the component waited for approval to disclose the
         information to the requester. Many of these requests appeared to


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 16

         have been in process for more than 20 business days and thus had
         already exceeded the statutory deadline before the review process
         began. The delay of even one FOIA request beyond the statutory
         deadline creates legal risk, because a requester can file in U.S.
         district court for judicial review as soon as the statutory time
         period for responding passes.

         Again, in certain cases, review process delays led to violations of
         the statutory deadline. For example, a component received a FOIA
         request on March 1, 2010, and completed processing it on March
         19. The release could have been made then, which was within the
         20 business days required in the statute. However, it was not until
         March 31—23 business days after the request was made—that an
         Office of the Secretary staff person submitted minor edits to clarify
         the component’s response. The original language and suggested
         edits appear below:
         Original wording in the component’s response letter

           In responding to a FOIA request, the DHS/Privacy Office will
           search for responsive documents in its control on the date the
           search began. We began our search on March 4, 2010.


         Wording changes that the Office of the Secretary suggested

           Beginning on March 4, 2010, the DHS/Privacy Office searched
           for responsive documents in its control on the date the search
           began.

         The department officials told us that correcting errors in cover
         letters was necessary, and led component authors to devote more
         attention to grammar and quality. Letters with errors reflected
         poorly on the department’s professionalism and service, they
         added. We agree that certain letters could be improved. The
         department may wish to remain focused on the quality of FOIA
         response letters, and the component review process we recommend
         should facilitate needed improvements without a delay in
         disclosing information. We do not support delaying FOIA requests
         beyond the statutory timeframe to make minor edits, which is
         inconsistent with the purpose of FOIA and the short timeframes
         established in the statute.

         Other cases of delay are evident. In a June 2010 case, a
         component asked for an update more than 3 weeks after the review
         process began. In reply, a Privacy Office manager said that the


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 17

         release was still in the review process. The component FOIA
         expert noted the urgency of the matter, since the review process
         caused a violation of the 20-business-day response requirement.

         Even when the review process did not violate the statutory
         timeframe, inefficiencies resulted. On several occasions, staff in
         the Office of the Secretary made basic inquiries about FOIA in
         general and why records were being sought in particular cases. In
         most instances, neither FOIA officers nor program experts would
         have answers to such questions. To the extent the staff was
         seeking answers to specific operational questions raised by FOIA
         requesters, the staff should direct such questions to program
         experts, not FOIA processors. Additionally, FOIA does not
         require requesters to specify why they want records. Nonetheless,
         the Privacy Office provided e-mail responses to such questions in
         some cases. Reviewed materials reflected the frustration of FOIA
         staff throughout the department regarding the time required to
         respond to such inquiries.

         Inefficiencies were also created when responsive documents were
         too large to send via e-mail. In certain instances, Privacy Office
         managers had to hand-carry paper or disk copies of FOIA releases
         to the Office of the Secretary. These actions did not result in major
         expenses or extensive processing delays, but the inefficiency
         involved is at odds with the 2009 Attorney General memorandum,
         which began by emphasizing “our nation’s fundamental
         commitment to open government” through implementation of the
         President’s vision. The memorandum also articulated a view that
         “timely disclosure of information is an essential component of
         transparency.” The practices outlined above were contrary to this
         spirit.

         When we interviewed the Chief FOIA Officer and a staff person in
         the Office of the Secretary, they agreed that the review process
         introduced some delays and inefficiencies. Both told us that only a
         few cases were affected in any significant way. We were provided
         examples where the Office of the Secretary worked with
         component counsel to improve FOIA responses. In one case, the
         Office of the Secretary ensured that a component did not
         prematurely release another department’s records.

         The department also informed us that the leadership of the Privacy
         Office and officials in the Office of the Secretary helped to
         develop the SharePoint process now used, which facilitates release
         of information while still providing managers with the awareness


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 18

         they need about cases that will likely cause media interest. We
         acknowledge that the use of SharePoint is preferable to the
         abandoned process that delayed dozens of releases for long
         periods. However, the new process is not required by FOIA and
         seems inconsistent with the 2009 FOIA guidance prohibition of
         “unnecessary bureaucratic hurdles.” The department should
         continually examine how any delay affects statutory compliance
         and the efficiency of the DHS disclosure program. We do not
         understand why certain finalized releases, even for “awareness”
         purposes, must remain in the department’s control for 3 days,
         effectively trimming to 17 days the amount of time available to
         FOIA processing officers if the entire process is still to satisfy the
         20-day statutory limitation.

         DHS FOIA Experts Questioned the Utility of the Significant
         Request Reviews

         We interviewed FOIA experts in the Privacy Office and 10 other
         DHS components, including those in the Office of Inspector
         General. These offices received 99% of DHS FOIA requests from
         October 2008 through June 2010. Generally, the experts had a
         negative view of the significant review process.

         When the Office of the Secretary began to request copies of all
         significant FOIA disclosures prior to release, the Chief FOIA
         Officer expressed concern to a senior official in the Office of the
         Secretary. Under the process, components would send certain
         FOIA releases to the Privacy Office. Staff there would forward the
         information to the Office of the Secretary for review. The Chief
         FOIA Officer suggested that the process could create inefficiencies
         and burden the components. Although the Office of the Secretary
         later improved the process through SharePoint, the concerns that
         the Chief FOIA Officer expressed as the review process was being
         established were not heeded.

         Documents we reviewed indicate that the Chief FOIA Officer’s
         reservations continued after implementation of the review process.
         In December 2009 e-mail messages to her staff, the Chief FOIA
         Officer lamented the level of attention that the Office of the
         Secretary was giving to significant requests. In that same month,
         the Chief FOIA Officer informed the DHS Office of the General
         Counsel that staff involved in the review process had suggested
         inappropriate edits to FOIA release cover letters—edits that would
         have altered the information requesters received on appeal rights
         when FOIA denials were made.


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 19

         Through internal communications, Privacy Office managers shared
         process concerns on several occasions. In a February 2010
         memorandum, one manager wrote that review of requests in the
         Office of the Secretary is “a significant resource drain” for
         components, prompting delays in FOIA releases and loss of
         efficiency. These concerns were reiterated in April 2010: “The
         front office review process has significantly hampered the ability
         of DHS and its components to respond promptly to requests.”

         Other components did not experience notable delays or were less
         opposed to the review process. These FOIA officers said the
         review was designed to improve DHS awareness of major public
         requests, and added that records were released after review from
         the Office of the Secretary, although some cases were not released
         in a timely manner. No FOIA officer said that requesters were
         disadvantaged because of their political party or particular area of
         interest. Nonetheless, some FOIA officers who were less critical
         of the process expressed doubts about significant review, with one
         suggesting that the Office of the Secretary likely had more
         important work to do than review FOIA disclosures prior to
         release.

         Data From One Component Demonstrate That the Significant
         Request Review Process Added to FOIA Processing Times

         Components rarely tracked the time requests spent in the review
         process. The incomplete data we were provided support what
         component FOIA officers have suggested: There was wide
         variation in the time required to complete the review process. Staff
         in the Office of the Secretary assigned to review significant FOIA
         releases were responsible for various other tasks, which likely
         explains the inconsistent response time to FOIA cases. Also, some
         delays developed outside the Office of Secretary, as the Secretary’s
         Office forwarded certain requests to the Office of the General
         Counsel for additional review.

         For a short period, one component tracked the amount of time
         involved in the Office of the Secretary review of significant FOIA
         requests. Of the 53 cases monitored, which covered releases sent
         for review from March through July 2010, it took the Office of the
         Secretary an average of 15 business days to complete the review
         process. The component could not send the information to the
         requester until this review was completed. However, several cases
         among the 53 cases monitored were part of the review process for


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 20

                          far longer than the 15-day average. Of the 20 significant releases
                          sent in March and April, three took more than 40 business days,
                          with one case taking 46 days. Six other cases were in the review
                          process between 30 and 40 days. Of the 53 cases, 15 spent more
                          than 20 business days in the review process.

                          In our interviews, several DHS FOIA managers stressed that the
                          process was counter to the statute and the 2009 executive branch
                          guidance. Different component experts declared that the process
                          was “a disservice to the requester” that had “no added value” to
                          DHS FOIA practices.

                          FOIA officers can be concerned with delays even when only one
                          case is affected, because of potential legal liability and the desire to
                          serve requesters promptly. This was the view of components that
                          had few significant requests during the process. One of these
                          component’s FOIA officers said that the review process took more
                          than 90 days in one case.

                          The Significant Request Review Process Led to Negative Media
                          Attention

                          Even if the process had improved the department’s FOIA
                          processing, the delays it caused, the July 2010 AP story, and the
                          subsequent congressional scrutiny led to negative comments from
                          the press and those interested in more disclosure under FOIA. The
                          effort to improve “awareness” of significant requests actually
                          increased negative attention from the media.

                          We found several examples of media negativity. The review
                          process also prompted a request to Inspectors General from
                          Representative Issa and Senator Grassley to evaluate political
                          appointees’ control over FOIA.18

                          Additionally, an Internet blog associated with a newspaper
                          declared that the review process meant the new administration was
                          “no friend of FOIA,” while an Arizona Daily Star editorial stated
                          that DHS actions were contrary to the “bedrock” of public
                          information laws. Another editorial noted that the DHS policy was
                          at odds with open government principles.19


18
   “House panel expands probe of information requests,” Washington Post (February 1, 2011),

http://grassley.senate.gov/news/Article.cfm?customel_dataPageID_1502=28447. 

19
   “Obama administration no friend of FOIA,” Missoula Editor (July 22, 2010), 

http://missoulaeditor.com/?p=1799; Editorial, “Freedom of Information is a Public Right,” The Arizona 



                 The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                 Page 21

                          Some websites were more negative, even to the point of being
                          inaccurate. One used animation to show the Secretary placing
                          some FOIA requests in the trash.20 As we have noted, the review
                          process did not lead to the denial of eventual information
                          disclosure.

                          Sufficient Concern Existed for the Chief FOIA Officer To
                          Recommend That the Secretary End the Review Process

                          The information we received demonstrates that the review process
                          created inefficiencies in the FOIA process. Such inefficient
                          oversight of significant requests before release led to statutory
                          noncompliance or prolonged delays in some cases. Additionally,
                          various individuals who reviewed significant cases, including
                          senior DHS officials, had little to contribute to the department’s
                          disclosure program. As cases went unprocessed for weeks, the
                          Chief FOIA Officer could have invoked 5 U.S.C. § 552(k)(3).
                          Recommending changes to DHS FOIA practices would have
                          informed the Secretary of problems related to the review process.

                          The Chief FOIA Officer has improved the FOIA process at DHS.
                          Components believe the Chief FOIA Officer deserves credit for the
                          positive communication and open dialogue across the department’s
                          FOIA offices. Components also believe that the Chief FOIA
                          Officer’s staff deserves praise for their roles in improving DHS’
                          FOIA operations. To further improve the DHS FOIA program, the
                          Chief FOIA Officer should develop a policy to use the (k)(3)
                          authority on a regular basis. Doing so would give the Secretary
                          information on what is needed to improve DHS FOIA operations.
                          This is important because of the legal risks that exist under the
                          statute, and because the President has declared that FOIA is “the
                          most prominent expression of a profound national commitment to
                          ensuring an open Government.” To support this determination, the
                          Attorney General noted, “Timely disclosure of information is an
                          essential element of transparency.”

                          Based on information we received, the review process is still being
                          used. Inefficiencies and time lags may therefore still exist when a
                          FOIA request falls into that process. Further analysis by the

Daily Star at A11 (July 23, 2010); “Political Scrutiny Tops at Homeland Security,” Grand Junction Daily 

Sentinel, July 22, 2010. 

20
   American Thinker (July 23, 2010), 

http://www.americanthinker.com/blog/2010/07/beware_if_you_make_an_foia_req.html. . 




                 The DHS Privacy Office Implementation of the Freedom of Information Act

                                                 Page 22
              Privacy Office could lead to specific (k)(3) recommendations on
              the discontinuance of this process, or perhaps changes to the 3- or
              1-day hold on issuing the response pending that review.

              We requested all documents related to the Chief FOIA Officer’s
              use of the (k)(3) authority. In addition to the DHS proactive
              disclosure memorandum, we received one July 2010
              memorandum, an analysis of the need for additional support to
              reduce the backlog in FOIA appeals. The Chief FOIA Officer said
              that an appeals backlog “presents a potential litigation risk and is
              not in keeping with the Administration’s aspirations and directions
              regarding compliance with FOIA.” This exact wording could have
              been used to recommend an end to the review process.

              Because the Chief FOIA Officer holds a vital position as advisor to
              the Secretary, routine use of (k)(3) reports would empower the
              Privacy Office and improve FOIA compliance across DHS.
              Recommendations under (k)(3) should be used to implement the
              President’s vision and reduce the department’s exposure to legal
              risk. Because the need for recommendations may fluctuate over
              time, a determination on the frequency of reporting should be at
              the discretion of the Chief FOIA Officer.

     Recommendation
              We recommend that the Chief FOIA Officer:

              Recommendation #4: Report as necessary to the Secretary, based
              on 5 U.S.C. § 552(k)(3), to recommend improvements to the DHS
              FOIA enterprise.


Additional Guidance Is Needed on How DHS Will Make
Discretionary Releases Under FOIA
              Some Office of the Secretary Personnel Misunderstood FOIA
              and the 2009 Executive Branch Guidance

              Even though the Office of the Secretary did not deny FOIA
              requests, legitimate concern exists when any process decreases the
              efficiency of FOIA processing. Such problems can lead to
              statutory noncompliance and a disregard of presidential directives.
              Based on the e-mail messages exchanged between the Privacy
              Office and the Office of the Secretary, we determined that some



     The DHS Privacy Office Implementation of the Freedom of Information Act 


                                     Page 23

         staff in the Office of the Secretary involved in the review of
         significant requests did not have sufficient knowledge of FOIA.

         One case involved an individual’s interpretation of the Privacy
         Office’s August 2009 proactive disclosure memorandum. As
         noted previously, the memorandum was a positive step to expand
         the statutory requirement to make more documents available in
         DHS electronic reading rooms. Interpretations of this
         memorandum by personnel in the Office of the Secretary in one
         case detailed below were at odds with the OIG’s view of statutory
         intent and the 2009 executive branch guidance. [Exact quotation
         withheld.]

         This individual implied that the potential embarrassment of DHS
         should be considered when making proactive disclosure decisions.
         The expectation of greater disclosure is clear in the 2009 executive
         branch guidance, even though it is true that the President’s
         memorandum did not create new rights for persons or prevent the
         government from asserting necessary exemptions. FOIA is
         indisputably a disclosure statute, not a means for federal agencies
         to keep embarrassing information from the public.

         In another case, the statements of a senior official in the Office of
         the Secretary implied an effort to decrease the level of FOIA
         disclosure. In March 2009, 6 months before the review process
         began, the official suggested, “Nothing should be released” in a
         specific request for pre-decisional documents. In another instance,
         it was suggested that the department should send public
         information only to a particular requester. Government employees
         should undoubtedly ask questions and offer suggestions while a
         course of action is under consideration. This is the “deliberative
         process” in which government employees must engage in order to
         make reasoned decisions. Thus, the fact that these suggestions
         were not adopted as policy is significant. However, a FOIA
         manager expressed concern that the official’s suggestion could
         have led a component to limit the search for department records
         because the focus of the analysis was on withholding versus
         disclosing records.

         Other individuals in the Office of the Secretary had an incorrect
         view of what FOIA required. In the case of a right-wing
         extremism FOIA request, the DHS Office of Intelligence and
         Analysis did not redact the draft mission statement for the former
         Extremism and Radicalization Branch of the Homeland
         Environment Threat Analysis Division. The inclusion of this


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 24

         information in the component’s proposed release raised concern on
         the part of a staffer reviewing the significant release.

         This instance demonstrated further misunderstanding of the FOIA
         process. Even though program experts and FOIA staff had already
         determined that the draft mission statement was responsive and
         that it should be released, there was a suggestion that the draft
         material should not become public simply because it was a draft
         document. The fact that a document is a draft is one factor in the
         deliberative process analysis, but not the only factor. Although we
         did not find evidence that the material was withheld, FOIA is a
         disclosure statute that requires release of information unless an
         exemption authorizes or requires the agency to withhold the
         records. Also, although agencies may make discretionary
         disclosures of records that fall under certain exemptions, changes
         in administrations over the years have resulted in varied
         applications of this authority. The 2009 executive branch FOIA
         guidance established that agencies should not withhold records
         simply because an exemption may apply, as FOIA decisions are to
         be made under a “presumption in favor of disclosure.” Thus, a
         suggestion to reevaluate a FOIA release in order to find a basis for
         withholding when the release had already been determined to be
         required under FOIA, does not appear to be consistent with these
         guidelines. Again, government employees should freely question
         proposed decisions as part of the deliberative process. However,
         doing so without a clear understanding of FOIA adds little to the
         agency’s decision-making process and delays the FOIA response.

         Additional Information May Have Been Appropriate for
         Release to the AP Regarding the Significant Request Review
         Process

         In January 2010, the AP submitted a FOIA request for information
         about the department’s FOIA review process. We examined the
         FOIA release to gain an understanding of how exemptions were
         applied. While the bulk of the redactions undoubtedly were
         appropriate, we are concerned that certain statements may have
         been withheld from the AP release merely to avoid embarrassment
         to the department, which is not appropriate under FOIA, and
         certainly not under the 2009 executive branch guidance. The
         Privacy Office had minimal participation in the AP release, since
         most of the requested e-mails included Privacy Office staff.
         Instead, the DHS Office of the General Counsel made the
         redaction decisions.



The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 25

                          The redactions we questioned were generally made under FOIA
                          Exemption 5, which covers “memorandums or letters which would
                          not be available by law to a party other than an agency in litigation
                          with the agency.”21 The exemption protects information that is
                          normally privileged in civil discovery.22 Among other privileges,
                          courts have determined that agencies can protect deliberative
                          processes so as not to “stifle honest and frank communication
                          within the agency” and to protect “the consultative functions of
                          government.”23 Case law suggests that “advisory opinions,
                          recommendations, and deliberations comprising part of a process
                          by which governmental decisions and policies are formulated” can
                          be protected.24 Exemption 5 can protect agency discussions on pre-
                          decisional matters so that employees can provide advice without
                          concern for public disclosure.

                          Even before the 2009 executive branch guidance, judicial decisions
                          interpreting deliberative process under Exemption 5 required
                          agencies to evaluate pre-decisional materials under various factors
                          in order to determine whether the privilege applied. In 1975, a
                          U.S. Appeals Court made points that remain valid. “[P]re-
                          decisional materials are not exempt merely because they are pre-
                          decisional,” the court noted. “[T]hey must also be a part of the
                          agency give-and-take of the deliberative process—by which the
                          decision itself is made.”25 This means that Exemption 5 does not
                          protect all pre-decisional agency documents, and specifically, that
                          the pre-decisional nature of a document alone is not enough to
                          justify withholding release under FOIA.

                          This is especially important when considering the 2009 executive
                          branch guidance. In the updated version of the Guide to the
                          Freedom of Information Act, the Department of Justice wrote, “[I]t
                          is important to first note that the President and Attorney General
                          have issued memoranda to all agencies emphasizing that the FOIA
                          reflects a ‘profound national commitment to ensuring an open
                          Government’ and directing agencies to ‘adopt a presumption in
                          favor of disclosure.’”26




21
   5 U.S.C. § 552(b)(5).

22
   NLRB v. Sears, Roebuck & Co., 421 U.S. 132, 149 (1975). 

23
   Id. at 149; Coastal States Gas Corp. v. Dep’t of Energy, 617 F.2d 854, 866 (D.C. Cir. 1980). 

24
   In re Sealed Case, 121 F.3d 729, 737 (D.C. Cir. 1997). 

25
   Vaughn v. Rosen, 523 F.2d 1136, 1144 (D.C. Cir. 1975). 

26
   U.S. Department of Justice Guide to the Freedom of Information Act at 357 (Government Printing 

Office, 2009). 



                The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                Page 26

                             In addition to this general advice applicable to all FOIA releases,
                             April 2009 DOJ guidance suggests that pre-decisional material is
                             suitable for discretionary disclosure:

                                   There is no doubt that records protected by Exemption 5 hold
                                   the greatest promise for increased discretionary release under
                                   the Attorney General’s Guidelines. Such releases will be
                                   fully consistent with the purpose of the FOIA to make
                                   available to the public records which reflect the operations
                                   and activities of the government. Records covered by the
                                   deliberative process privilege in particular have significant
                                   release potential. In addition to the age of the record and the
                                   sensitivity of its content, the nature of the decision at issue,
                                   the status of the decision, and the personnel involved, are all
                                   factors that should be analyzed in determining whether a
                                   discretionary release is appropriate.27

                             Public data from the Privacy Office demonstrate that the
                             department’s use of Exemption 5 has grown considerably, even
                             though total FOIA requests have declined. In 2006, the department
                             received 137,871 requests, with 33,705 uses of Exemption 5. For
                             2009, the comparable numbers were 103,093 and 59,510. Thus,
                             while total FOIA requests decreased by 25%, the use of Exemption
                             5 increased by 77%. In FY 2010, use of the exemption decreased,
                             but remained high compared to historical standards. The
                             department received 130,098 requests, and Exemption 5 was used
                             in 41,828 instances. These numbers in isolation may not be cause
                             for concern, especially since the types of records requested will
                             largely determine whether Exemption 5 applies to particular
                             records. Nevertheless, in the context of the Office of the
                             Secretary’s previous involvement in the FOIA process, the
                             numbers help to suggest that additional clarification on the
                             requirements of FOIA is justified.

                             The DHS release of information to the AP provides examples in
                             which we question whether DHS fully implemented the
                             presidential vision for greater release of deliberative process
                             material. We are not quoting from these materials because the
                             material was redacted. Although there were some efforts to
                             change FOIA responses, we could not substantiate that such
                             changes were made before information was released.



27
     http://www.justice.gov/oip/foiapost/2009foiapost8.htm.



                   The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                   Page 27

                            Potentially embarrassing wording was redacted in other cases as
                            well. In November 2009, a senior DHS official suggested
                            limitations on the release of a particular request that a component
                            was processing. Additional redactions were made in some
                            instances where FOIA managers expressed frustration with the
                            review process. The 2009 executive branch guidance could
                            reasonably be interpreted to suggest release of these statements.
                            These comments were made after the Office of the Secretary had
                            already established the review process. Redaction of such
                            statements was not based on an understanding that the purpose of
                            the deliberative process privilege was to “prevent injury to the
                            quality of agency decisions.”28 These post-decisional comments
                            were not made in a deliberative context to those who could change
                            the policy. Assuming these statements were responsive to the
                            FOIA request, and no other exemption applied, we believe that
                            release of the statements, rather than redaction, would have been
                            more appropriate based on the 2009 executive branch guidance.

                            Our conclusions about certain AP redactions reflect a difference of
                            opinion with the department on a limited number of choices that
                            were made with this FOIA release. Any statements we make about
                            the AP release do not mean that we have concluded the department
                            acted in an unlawful manner. Nor do we suggest that the use of
                            Exemption 5 across DHS is incorrect or even that every use in the
                            AP release is worrisome. The AP’s FOIA request was not known
                            to us during the planning phase for this inspection. The content of
                            the release is directly relevant to the review process, which became
                            a major focus of this report. Thus, a detailed review of that FOIA
                            release and the hundreds of redactions made therein—in the
                            context of evaluating the FOIA review process—was appropriate.

                            To ensure the fullest possible respect for the 2009 executive branch
                            guidance, the Chief FOIA Officer should recommend that the
                            Secretary issue instructions on the use of redactions. This
                            guidance should clarify that departmental interests under
                            Exemption 5 must be balanced, and that Exemption 5 is not
                            designed to shield embarrassing or controversial words from public
                            scrutiny. Policy statements such as the 2009 executive branch
                            guidance, in conjunction with established case law, must govern
                            redaction decisions under FOIA. A policy statement from the
                            Secretary would express the sentiment that DHS fully embraces
                            the President’s vision for FOIA releases. We have noted the
                            positive work that the Privacy Office initiated after the 2009

28
     NLRB v. Sears, 421 U.S. 132, 151 (1975).


                   The DHS Privacy Office Implementation of the Freedom of Information Act 


                                                   Page 28

              executive branch guidance, and efforts to enlist the Secretary’s
              support for additional transparency would promote the
              department’s adherence to the new FOIA paradigm.

     Recommendation
              We recommend that the Chief FOIA Officer:

              Recommendation #5: Use the authority at 5 U.S.C. § 552(k)(3) to
              recommend to the Secretary that the Secretary issue written
              guidance to the department on the President’s reiteration that
              embarrassment, abstract fears, and the exposure of failure are not
              grounds to exempt information under FOIA.


Recommendations Under the (k)(3) Authority Are Necessary To
Improve DHS FOIA Staffing
              Some FOIA officers we interviewed expressed concern about
              inadequate staffing. Even FOIA officers who believed that staffing
              was sufficient said problems would arise if FOIA requests
              increased. Several component FOIA officers said that progress
              with proactive disclosures has suffered because of the need to
              focus resources on incoming requests. Interviewees suggested that
              additional FOIA staff would allow for concentration on backlog
              reduction and more proactive disclosure.

              The Privacy Office has detailed staff to other components when
              staffing needs arose, but this is not a permanent solution to agency
              staffing concerns. Two interviewees suggested that the department
              could detail existing FOIA staff to other components that needed
              assistance. A short-term alternative to additional funding or
              detailees would be the formation of a task force or working group
              to address staffing needs and render assistance throughout the
              department on an as-needed basis.

              At 103,093 requests, DHS had the most FOIA requests in the
              federal government in FY 2009, the last year full data for the entire
              government are available. Managing the backlog for such a busy
              FOIA operation can be difficult. In January 2010, the
              department’s backlog was 12,406 requests. The backlog increased
              to 17,319 requests in June 2010, a 39.6% increase in 6 months.
              The backlog by the end of FY 2010 fell to 11,383.




     The DHS Privacy Office Implementation of the Freedom of Information Act 


                                     Page 29

         In March 2010, the White House issued a memorandum to agency
         and department heads requesting that they take certain steps to
         implement the President’s 2009 FOIA guidance. One of those
         steps was to assess the level of resources for FOIA processing to
         ensure prompt responses and cooperation with requesters. We
         received data that substantiated the department’s effort to hire
         additional FOIA staff. At the end of FY 2010, DHS had 420 full-
         time FOIA staff, an increase of 40 positions in 1 year.
         Nonetheless, nine DHS components reported an increase in their
         FOIA backlog during FY 2010.

         Even with the efforts to increase staff and reduce FOIA backlogs,
         the department’s FOIA caseload can still be difficult to manage. In
         an April 2010 internal memorandum, the Director, Disclosure and
         FOIA, noted that other departments’ staffing resources exceeded
         those of DHS. This prompted a recommendation that several
         components should have additional FOIA personnel. The
         department should ensure that the FOIA staffing issue remains a
         focused area of study, especially since backlog reductions fluctuate
         throughout the year. Staff may also be necessary to focus
         resources on proactive disclosure.


Recommendation
         We recommend that the Chief FOIA Officer:

         Recommendation #6: Study and make recommendations to the
         Secretary regarding FOIA staffing levels.

Management Comments and OIG Analysis
         The Privacy Office and DHS Office of General Counsel submitted
         a consolidated response to our report. We have made changes to
         the report where we deemed appropriate. A copy of the
         department’s response, in its entirety, is included as Appendix B.
         We also received technical comments from the department, and we
         have made corrections to the report based on these comments.

         The department concurred with each of our six recommendations.
         The formal response to our report included concerns about specific
         OIG methodologies and conclusions, as well as a management
         response to each recommendation. Our analysis of the DHS
         response to the recommendations follows a brief discussion of the
         department’s concerns.


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 30

         Our report fully respects the right of the Secretary to direct and
         control DHS. Positive change can result when the Office of the
         Secretary reviews and coordinates component activities. This has
         been particularly useful to our office when we issue reports that
         involve multiple parts of DHS.

         It is appropriate that the Secretary oversee the DHS FOIA
         program. It is also appropriate that there be internal debate among
         DHS employees about DHS programs, and FOIA processing is no
         exception. We simply determined that the unprecedented scope of
         the review process, and specifically the 2009 decision to hold
         releases to requests deemed significant until the review was
         completed, created various inefficiencies and delayed some
         releases. Because the department stopped most parts of the
         process after less than a year of operation, including a change as of
         March 28, 2011, to reduce the 3-day hold to a 1-day hold, we
         conclude that the Office of the Secretary agrees that the review
         process was unworkable as formerly executed.

         We also fully respect the intent of FOIA Exemption 5. Case law
         and the 2009 executive branch guidance have established that a
         statement is not subject to protection under Exemption 5 simply
         because it is pre-decisional. Whether a redaction can or should be
         made are two different analytical questions. The President’s
         January 2009 guidance on FOIA, and DOJ policies issued in
         response to it, are clear on this. Because the department concurs
         with each of our recommendations, we believe the difference of
         opinion is not as serious as one might infer from some parts of the
         management response. The OIG will continue to seek the most
         efficient and effective policies across DHS, and we are pleased that
         the department respects that role.

         Recommendation #1: That the Chief FOIA Officer develop
         additional internal policies regarding proactive disclosure to ensure
         consistency across components and quicker posting of information.

         Management Response: The department concurred with
         Recommendation #1. The Privacy Office noted the various
         enhancements the department has made in proactive disclosure.
         The department’s electronic reading rooms include more than
         10,000 pages of documents, and new publications are released
         every week. Further work to address this important area, through
         collaboration with component FOIA officers, is ongoing. The
         Privacy Office anticipates that it will have a department-wide
         procedure by December 2011.



The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 31

         OIG Analysis: The department has made progress in proactive
         disclosure. As noted by the Chief FOIA Officer, the department
         has continued to improve proactive disclosure, and we determined
         that the progress is ongoing. We appreciate the past focus on this
         issue, which is central to an agency’s disclosure program. The
         recommendation is resolved and open.

         Recommendation #2: That the Chief FOIA Officer formalize the
         roles and responsibilities of the Public Liaison.

         Management Response: The department concurred with
         Recommendation #2. The Chief FOIA Officer and Deputy Chief
         FOIA Officer will work with the Public Liaison to further clarify
         the position’s important role. The Chief FOIA Officer and Deputy
         Chief FOIA Officer, together with the Public Liaison and the
         component FOIA officers, will review the roles and
         responsibilities of the Public Liaison. The Privacy Office
         anticipates that it will accomplish this goal by September 30, 2011.

         OIG Analysis: As with proactive disclosure, the department will
         be able to build on past progress and the positive relationships that
         the Public Liaison has created. The planned study of the position’s
         role is an excellent opportunity to work with components and the
         public to make the department’s use of the public liaison role a
         model for other federal agencies. The recommendation is resolved
         and open.

         Recommendation #3: That the Chief FOIA Officer implement an
         internal review function to assess department-wide FOIA
         operations on a regular basis to maximize efficiencies and improve
         the administration of the department’s FOIA operations.

         Management Response: The department concurred with
         Recommendation #3. The Chief FOIA Officer and Deputy Chief
         FOIA Officer intend to develop a collaborative internal review
         process over the next several months.

         OIG Analysis: We are pleased that the Privacy Office views an
         internal review program as a means to accomplish ongoing FOIA
         program improvement. Because of the department’s positive
         reputation with components, we share the conclusion that the
         process will be collaborative and respectful of component equities.
         We anticipate that the Privacy Office will develop a successful
         review protocol. A focus on the quality of FOIA response letters is
         an obvious first area of review. This would allow the department
         to improve the effectiveness of its disclosure program while


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 32

         gaining further public confidence. The recommendation is resolved
         and open.

         Recommendation #4: That the Chief FOIA Officer report as
         necessary to the Secretary, based on 5 U.S.C. § 552(k)(3), to
         recommend improvements to the DHS FOIA enterprise.

         Management Response: The department concurred with
         Recommendation #4. The Chief FOIA Officer intends to develop
         recommendations to the Secretary on an as-needed basis. The
         specific timing of recommendations has not been determined.

         OIG Analysis: We are pleased that the department understands
         the utility of the (k)(3) process. The yet undetermined frequency
         of the recommendations is appropriate. We suggest that the Chief
         FOIA Officer develop a formalized policy on use of the authority,
         even if the timing of particular recommendations is not known.
         Provision of a new (k)(3) policy under the corrective action
         process would be sufficient to close the recommendation. The
         recommendation is resolved and open.

         Recommendation #5: That the Chief FOIA Officer use the
         authority at 5 U.S.C. § 552(k)(3) to recommend to the Secretary
         that the Secretary issue written guidance to the department on the
         President’s reiteration that embarrassment, abstract fears, and the
         exposure of failure are not grounds to exempt information under
         FOIA.

         Management Response: The department concurred with
         Recommendation #5. The Privacy Office has issued
         memorandums on FOIA exemptions and the 2009 executive
         branch guidance. Further analysis of the need for additional
         support to DHS components will occur. The Privacy Office also
         plans a systematic review of Exemption 5 usage.

         OIG Analysis: During our inspection, we observed several
         positive efforts that the Privacy Office has made to inform
         components about FOIA policy. As with the meaningful work in
         other areas, we foresee potential for additional collaboration across
         DHS on the important realm of increasing transparency, as
         mandated by the President. The review of Exemption 5 usage
         should augment ongoing work on exemption policy development.
         Further details about new exemption policy guidance, especially
         the memorandum to the Secretary on the use of (b)(5), would help
         to close this recommendation. The recommendation is resolved
         and open.


The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 33

         Recommendation #6: That the Chief FOIA Officer study and
         make recommendations to the Secretary regarding FOIA staffing
         levels.

         Management Response: The department concurred with
         Recommendation #6. The Privacy Office has analyzed FOIA
         staffing. Future work to evaluate staffing levels will build on
         previous efforts. New conclusions regarding staffing could then
         lead to recommendations to the Secretary on FOIA staffing levels
         across DHS.

         OIG Analysis: The Privacy Office has outlined a credible
         approach to this matter. We did not recommend new staff in any
         component because the Chief FOIA Officer can collaborate with
         FOIA officers across the department to determine the possible
         need for and frequency of staffing recommendations to the
         Secretary. The recommendation is resolved and open. 




The DHS Privacy Office Implementation of the Freedom of Information Act 


                                Page 34

Appendix A
Purpose, Scope, and Methodology

                     We undertook this review based on our interest in the department’s
                     compliance with the Freedom of Information Act since the 2009
                     executive branch guidance was issued. We reviewed presidential
                     directives, information produced by DOJ’s Office of Information
                     Policy, legal cases, and DHS policies and data on FOIA
                     implementation. The review focused on how the Privacy Office
                     works on FOIA implementation with components, as well as how
                     the significant request review process affected the DHS FOIA
                     enterprise. We did not examine the FOIA appeals process.

                     We did not examine component FOIA decisions, except for the
                     redactions made to information that was provided to the
                     Associated Press after a request for e-mail messages related to the
                     review process. Under normal circumstances, our reports might
                     include direct quotations from departmental records. We did not
                     include all quotations that support our findings, however, because
                     some of these statements have been redacted by the department in
                     responding to a FOIA request that is currently pending under the
                     DHS FOIA administrative appeals process.

                     We conducted 21 interviews, which included discussions with staff
                     from 11 DHS components that process FOIA requests, as well as
                     with FOIA experts inside and outside of the federal government.
                     We selected these interviewees to ensure a range of perspectives
                     based on both the size of the component’s FOIA caseload and
                     subject matter expertise. The Office of Inspector General, like
                     other DHS components, responds to FOIA requests. This report
                     describes DHS FOIA policies and procedures with which we also
                     comply.

                     We conducted this performance inspection between July and
                     September 2010 pursuant to the Inspector General Act of 1978, as
                     amended, and according to the Quality Standards for Inspections
                     issued by the Council of the Inspectors General on Integrity and
                     Efficiency.




            The DHS Privacy Office Implementation of the Freedom of Information Act 


                                            Page 35

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 36

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 37

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 38

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 39

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 40

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 41

Appendix B
Management Comments to the Draft Report




           The DHS Privacy Office Implementation of the Freedom of Information Act 


                                           Page 42

Appendix C
FOIA’s Statutory Exemptions and Exclusions


                                  Abbreviated Descriptions

See 5 U.S.C. § 552(b)(1) through (b)(9) for the full text of the exemptions and (c)(1)
through (c)(3) for the full text of the exclusions.

Exemption Number         Matters That May Be Exempt From Disclosure Under FOIA

          1              Classified national defense and foreign relations information

          2              Internal agency personnel rules and practices

          3              Information that is prohibited from disclosure by another federal
                         law

          4              Trade secrets and other confidential business information

          5              Inter-agency or intra-agency communications that are protected
                         by legal privileges

          6              Information involving matters of personal privacy

          7              Certain information compiled for law enforcement purposes

          8              Information relating to the supervision of financial institutions

          9              Geological information on wells



 Exclusion Number           Matters That May Be Excluded From the Reach of FOIA
          1	              Authorizes federal law enforcement agencies, under specific
                          circumstances, to shield the very existence of records of ongoing
                          investigations or proceedings by excluding them entirely from
                          FOIA’s reach
          2	              Provides that “whenever informant records maintained by a
                          criminal law enforcement agency under an informant’s name or
                          personal identifier are requested by a third party…, the agency
                          may treat the records as not subject to the requirements of
                          [FOIA] unless the informant’s status as an informant has been
                          officially confirmed”
          3               Pertains only to certain law enforcement records that are
                          maintained by the Federal Bureau of Investigation



               The DHS Privacy Office Implementation of the Freedom of Information Act


                                               Page 43

Appendix D
2009 Executive Branch Guidance

Figure 1. January 21, 2009, President’s Memorandum on FOIA




            The DHS Privacy Office Implementation of the Freedom of Information Act 


                                            Page 44

Appendix D
2009 Executive Branch Guidance




[http://edocket.access.gpo.gov/2009/pdf/E9-1773.pdf]



             The DHS Privacy Office Implementation of the Freedom of Information Act

                                            Page 45
Appendix D
2009 Executive Branch Guidance

Figure 2. March 19, 2009, Attorney General’s Memorandum on FOIA




            The DHS Privacy Office Implementation of the Freedom of Information Act 


                                            Page 46

Appendix D
2009 Executive Branch Guidance




            The DHS Privacy Office Implementation of the Freedom of Information Act 


                                            Page 47

Appendix D
2009 Executive Branch Guidance




[http://www.justice.gov/ag/foia-memo-march2009.pdf]




             The DHS Privacy Office Implementation of the Freedom of Information Act

                                            Page 48
Appendix E
Major Contributors to this Report

                      Douglas Ellice, Chief Inspector
                      Darin Wipperman, Team Lead Inspector
                      Traci Quan, Senior Inspector
                      Kimberley Cox, Inspector
                      Alexis Lavi, Intern Inspector




             The DHS Privacy Office Implementation of the Freedom of Information Act 


                                             Page 49

Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief FOIA Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             The DHS Privacy Office Implementation of the Freedom of Information Act 


                                             Page 50

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
